APPENDIX

A1

APPENDIX A
UNITED STATES COURT OF APPEALS FOR THE
SEVENTH CIRCUIT
No. 19-3074
DAVID J. ZAWISTOWSKI, Plaintiff-Appellant,
v.
MICHAEL D. KRAMER, et al., Defendants-Appellees.
[Submitted August 26, 2020*
Decided September 8, 2020]
ORDER
Before: MICHAEL S. KANNE, I LANA DIAMOND
ROVNER, and AMY C. BARRETT, Circuit Judges.
David Zawistowski is dissatisfied with the outcome
of a child-support and child-custody dispute in state
court. In this federal suit, his second against the judge
who presided over the state court’s proceedings, he
accuses the judge, a mediator, his children’s mother,
and both parties’ lawyers of conspiring to violate his
constitutional rights and several state laws. See 42
U.S.C. §§ 1983, 1985. The district court dismissed his
complaint, ruling that the judge and mediator were
immune from suit and that it lacked jurisdiction over
his other claims. We affirm the judgment with one
modification.
* Defendants Rhonda Marrs and Morgan & Glazar Law are not
participating in this appeal. We have agreed to decide the case
without oral argument because the briefs and record adequately
present the facts and legal arguments, and oral argument would
not significantly aid the court. FED. R. APP. P. 34(a)(2)(C).

A2

Zawistowski waged a lengthy child-support and
child-custody battle in Illinois state court against
Rhonda Marrs, the mother of his children. The two
disagreed over child support and, in 2012, decided they
no longer could jointly parent their children. After two
years, during which Marrs withdrew her petition for
sole custody and Zawistowski successfully appealed a
child-support ruling, see Marrs v. Zawistowski, 2019
IL App (3d) 130924-U, 2014 WL 3811079 (Ill. App. Ct.
2014), Judge Michael Kramer ordered mediation.
Zawistowski objected that the mediator had a conflict of
interest because she had represented Marrs in a related
matter, but the judge rejected that objection. In the end,
the parties failed to reach an agreement.
In the meantime, Zawistowski filed his first federal
suit against Judge Kramer for conspiring with Marrs
and both parties’ lawyers to thwart his child-support
and child-custody petitions. See Zawistowski v.
Kramer, No. 2U4-CV-02129 (C.D. Ill. June 2, 2014). The
district court dismissed his complaint, ruling that the
judge was protected by judicial immunity and that no
facts plausibly supported the allegations of conspiracy.
See Order, No. 2:14-^-02129 (C.D. Ill. Jan. 7, 2015).
Zawistowski did not appeal.
Proceedings continued in state court on
Zawistowski’s
child-support
and
child-custody
petitions. Zawistowski sought to have Judge Kramer
recuse himself on grounds of bias toward Marrs, but his
request was denied. Later, when the parties signaled in
the middle of trial that they agreed on most issues, the
judge again ordered mediation. Zawistowski, however,
failed to appear for a scheduled hearing, and the judge
later dismissed the case for want of prosecution.
Zawistowski appealed that ruling, but the Illinois
Appellate Court dismissed his appeal as moot because
his children by this time had reached the age of

A3

majority. See Marrs v. Zawistowski, 2019 IL App (3d)
170731-U, 2019 WL 6313536 (Ill. App. Q. 2019).
While his state-court appeal was pending,
Zawistowski returned to federal court and filed this suit
against Judge Kramer, Marrs, her lawyer, the mediator,
and his former lawyer. In a lengthy complaint, he
alleged that the judge predetermined the result of the
proceedings, misapplied domestic-relations law,
knowingly accepted false statements and fraudulent
filings, and otherwise conspired with the other
defendants to violate his rights to procedural due
process and to decide matters about his children’s care.
Judge Kramer’s adverse rulings, he continued, were
part of a plot by the defendants to retaliate against him
for filing his first federal complaint and appealing a
child-support order. Zawistowski also accused Marrs,
her lawyer, and the mediator of malicious prosecution
and abuse of process under state law, and his former
lawyer of legal malpractice.
Judge Kramer, Marrs, and Zawistowski’s former
lawyer filed motions to dismiss, contending that the
court lacked jurisdiction over Zawistowski’s claims and
that several were barred by the doctrine of res judicata.
Neither the mediator nor Marrs’s lawyer joined these
motions, though they filed untimely answers after
Zawistowski moved for entry of a default judgment
against the mediator.
The district court dismissed the complaint. The
court ruled that Judge Kramer and the mediator were
immune from suit and dismissed the claims against
them with prejudice. The court also concluded that
Zawistowski’s remaining federal claims were barred by
the domestic-relations exception to federal jurisdiction,
which divests federal courts of power to hear divorce,
alimony, and custody matters. See Ankenbrandt v.
Richards, 504 U.S. 689, 692 (1992). To the extent some

A4

of his claims challenged a final state-court judgment,
the court added, those were barred by the RookerFeldmart doctrine. See District of Columbia Court of
Appeals v. Feldman, 460 U.S. 462 (1983); Rooker v.
Fidelity Trust Co., 263 U.S. 413 (1923). Having
dismissed Zawistowski’s federal claims, the court
relinquished jurisdiction over his state-law claims and
denied his motion for entry of a default judgment
against the mediator on grounds that it lacked
jurisdiction.
On appeal Zawistowski challenges the district
court’s application of the domestic-relations exception
to his case. He emphasizes that the exception is narrow
and asserts that it is inapplicable because he seeks
damages for the defendants’ wrongful actions, rather
than the issuance of any child-support or child-custody
orders.
But Zawistowski’s federal claims, which attack the
defendants’ actions during family-court proceedings, all
fall within the exception. Unlike a plaintiff whose case
merely “touchfes] on the subject” of children or
marriage, see Arnold v. Villareal, 853 F.3d 384,387 n.2
(7th Cir. 2017), Zawistowski wants the federal court to
intervene in a contested domestic-relations matter that
has been reserved to the state court. Struck v. Cook Cty.
Pub. Guardian, 508 F.3d 858, 860 (7th Cir. 2007). In
his complaint, he details the parties’ procedural
missteps in state court and Judge Kramer’s purported
errors while presiding over the case, but nowhere does
he allege any conduct or injuries outside of the childsupport and child-custody proceedings. An adjudication
of his request for damages would require the district
court to re-evaluate the merits of those proceedings. See
Alien v. Allen, 48 F.3d 259, 261-62 (7th Cir. 1995).
However, dismissal of a complaint for lack of subjectmatter jurisdiction—as is the case here—should be

A5

without prejudice. See FED. R. CIV. P. 12(b)(1); Lewert
v. P.F. Chang’s China Bistro, 819 F.3d 963, 969 (7th
Cir. 2016). We modify the judgment accordingly.
Because the district court lacked subject-matter
jurisdiction, we do not consider Zawistowski’s other
contentions that the district court erred in determining
immunity, in dismissing his state-law claims, and in
refusing to enter a default judgment against the
mediator who filed her answer in untimely fashion. See
Jones v. Brennan, 465 F.3d 304, 308 (7th Cir. 2006)
(“[IJmmunity is a defense rather than a jurisdictional
defect.”); Mains v. Citibank, NA., 852 F.3d 669, 679
(7th Cir. 2017) (addressing supplemental jurisdiction
over state-law claims); see Swaim v. Moltan Co., 73
F.3d 711, 716 (7th Cir. 1996) (addressing the
relationship between subject-matter jurisdiction and
entries of default judgment).
We have considered Zawistowski’s remaining
arguments, and none has merit.
We AFFIRM the district court’s judgment, though
we modify it to be without prejudice.

A6
APPENDIX B
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
URBANA DIVISION
Case No. 18-CV-2255
DAVID J. ZAWISTOWSKI, Plaintiff,
v.
MICHAEL D. KRAMER, SCOTT N. SLIWINSKI,
EDWARD S. GLAZAR JR., MORGAN & GLAZAR LAW,
KIMBERLEY M. DONALD, RHONDA J. MARRS,,
Defendants.
[September, 30 2019]
ORDER
Before: COLIN S. BRUCE, U.S. District Judge
Plaintiff filed his Complaint (#1) on October 3,
2018. Defendant Marrs filed a Motion to Dismiss (#12)
on January 28, 2019; Defendant Sliwinski filed a
Motion to Dismiss (#16) on February 7, 2019;
Defendant Kramer filed a Motion to Dismiss (#20) on
February 11, 2019. Plaintiff filed a Response (#23) to
Defendant Marrs’ motion on February 12, 2019; and a
Response (#30) to Defendant Kramer’s motion on
February 28, 2019. Defendants Glazar, Morgan &
Glazar Law, and Donald did not timely file motions to
dismiss or answers to the Complaint; Donald has filed a
Motion for Extension of Time to File (#38), and Glazar
has filed a Motion for Leave to File Instanter (#40).
Also pending is Plaintiffs Motion for Entry of Default
(#36) against Defendants Glazar, Morgan & Glazar
Law, and Donald. Plaintiff is a disappointed state-court
domestic relations litigant. The underlying case in

A7

Kankakee County, Illinois, Circuit Court was filed in
2005. Plaintiff takes issue with various decisions made
by Defendant Kramer, the judge who presided over
Plaintiffs family case for several years. The other
defendants to this suit include Marrs, the mother of the
children the state court case relates to, Sliwinski,
Plaintiffs former lawyer, Glazar, Marrs’ lawyer, and
Donald, the court-appointed mediator. Plaintiff brings
suit pursuant to 42 U.S.C. §§ 1984 and 1985, alleging
violations of his rights under the First, Fifth, Eighth,
Ninth and Fourteenth Amendments to the Constitution.
All claims for violations of his federal constitutional
rights are predicated on a theory that all named
defendants conspired with Judge Kramer, a state actor,
to deprive him of those rights.
Plaintiff also brings supplemental state law claims.
There is no diversity of citizenship among the parties;
the alleged basis for jurisdiction in this court is federal
question jurisdiction under 28 U.S.C. § 1331 and
supplemental jurisdiction under 28 U.S.C. § 1367.
Under Rule 8(a)(2) of the Federal Rules of Civil
Procedure, a complaint must include “a short and plain
statement of the claim showing that the pleader is
entitled to relief.” Fed. R. Civ. P. 8(a)(2). “To survive a
motion to dismiss, a complaint must contain sufficient
factual matter, accepted as true, to ‘state a claim to
relief that is Plaintiff also brings supplemental state law
claims. There is no diversity of citizenship among the
parties; the alleged basis for jurisdiction in this court is
federal question jurisdiction under 28 U.S.C. § 1331 and
supplemental jurisdiction under 28 U.S.C. § 1367.
Under Rule 8(a)(2) of the Federal Rules of Civil
Procedure, a complaint must include “a short and plain
statement of the claim showing that the pleader is
entitled to relief.” Fed. R. Civ. P. 8(a)(2). “To survive a
motion to dismiss, a complaint must contain sufficient

A8

factual matter, accepted as true, to ‘state a claim to
relief that is plausible on its face.”’ Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009) (quoting BellAtl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007)). Further, the
court “has an obligation to raise sua sponte whether the
[c]ourt has subject matter jurisdiction.” Regions Bank
v. MMIL Entm% LLC, 2019 WL 2375118, at *2 (C.D. Ill.
June 5, 2019) (citing Craig v. Ontario Corp., 543 F.3d
872, 875 (7th Cir. 2008)).
There is no question that Judge Kramer is entitled
to judicial immunity from suit. See Cooney v. Rossiter,
583 F.3d 967, 970 (7th Cir. 2009); John v. Barron, 897
F.2d 1387, 1392 (7th Cir. 1990); Forester v. White, 484
U.S. 219, 225-29 (1988). All claims against Kramer arise
out of his decisions and actions in presiding over
Plaintiff s case. Plaintiff argues Kramer is being sued for
conduct outside his duties as a judge. The court
disagrees. Kramer presided over Plaintiffs family case,
Plaintiff was disappointed with many of his rulings, and
indeed Kramer erred in some of his rulings,1 but
Kramer’s involvement squarely stems from discharging
his duties as a judge. All claims against Defendant
Kramer are DISMISSED with prejudice.
There is also no question that Donald, the courtappointed mediator, is entitled to immunity as an “arm
of the court.” See Cooney, 583 F.3d at 970 (“Guardians
ad litem and court-appointed experts, including
psychiatrists, are absolutely immune from liability for
damages when they act at the court’s direction.”). All
claims against Defendant Donald are DISMISSED with
prejudice.
This court lacks jurisdiction over the remainder of
Plaintiffs federal claims because of the domestic
relations exception to federal jurisdiction. Plaintiff has
had a full opportunity to respond to Defendants’

A9

arguments that this court lacks jurisdiction, and none of
his arguments are persuasive.
“[T]he domestic-relations exception to federal
jurisdiction blocks federal adjudication of cases
involving divorce, alimony, and child custody decrees.”
Syph v. Arce, 772 F. App’x 356, 357 (7th Cir. 2019)
(citation omitted). “Ordinarily, this exception applies to
assertions of jurisdiction based on diversity of
citizenship, but it also applies to assertions of federalquestion jurisdiction.” Id. Plaintiffs allegations
squarely relate to the way his state family case played
out, and therefore this court does not have jurisdiction
to adjudicate his claims.
And, to the extent certain of Plaintiff s claims are
challenges to final rulings in the underlying state court
case, the Rooker-Feldman doctrine divests this court of
jurisdiction. See District of Columbia Court ofAppeals
v. Feldman, 460 U.S. 462 (1983); Rooker v. Fidelity
Trust Co., 263 U.S. 413 (1923).
Therefore, the court finds that it does not have
subject matter jurisdiction over Plaintiffs remaining
claims.
Having dismissed all of Plaintiffs federal claims for
lack of jurisdiction, the court now, in its discretion,
given the early stage of these proceedings, relinquishes
jurisdiction over Plaintiffs state law claims, which are
dismissed without prejudice. See RWJ Mgmt. Co. v. BP
Prod. N. Am., Inc., 672 F.3d 476, 482 (7th Cir. 2012).
Regarding Plaintiffs Motion for Entry of Default,
this court cannot enter default judgment where it lacks
jurisdiction. See Syph, 772 F. App’x at 357. Plaintiffs
Motion for Entry of Default is DENIED.

IT IS THEREFORE ORDERED THAT:
1) Defendants’ Motions to dismiss (#12, #16, #20)
are GRANTED. This case is DISMISSED due to

A10

judicial immunity and for lack of subject matter
jurisdiction.
2) Plaintiffs Motion for Entry of Default (#36) is
DENIED.
3) Motions (#38, #40) are DENIED as MOOT.
4) This case is terminated.
ENTERED this 30th day of September, 2019.
s/ Colin Stirling Bruce
COLIN S. BRUCE
U.S. DISTRICT JUDGE

All

APPENDIX C
UNITED STATES COURT OF APPEALS FOR THE
SEVENTH CIRCUIT
No. 19-3074
DAVID J. ZAWISTOWSKI, Plaintiff-Appellant,
v.
MICHAEL D. KRAMER, et al., Defendants-Appellees.
[ May 13, 2021 ]

ORDER
Before: MICHAEL S. KANNE, I LANA DIAMOND
ROVNER, Circuit Judges.
No judge of the court having called for a vote on the
Petition for Rehearing and Rehearing En Banc, filed by
Plaintiff-Appellant on October 21, 2020, and all of the
judges on the original panel* having voted to deny the
same, IT IS HEREBY ORDERED that the Petition for
Rehearing and Rehearing En Banc is DENIED.

* Circuit Judge Barrett was a member of the panel when this case
was decided on September 8, 2020; however, she did not
participate in the consideration of the petition for rehearing. The
petition is resolved by a quorum of the panel pursuant to 28 U.S.C.
§46(d).

